No. 20-1046
IN THE

$Upreme Ql:ourt of tbe Wniteb $tates
MARIN HOUSING AUTHORITY,

Petitioner,
V.

KERRIE REILLY,

Respondent.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this
Court, I hereby certify that Respondent's Brief in Opposition in Marin Housing

Authority u. Reilly, No. 20-1046, was served via electronic mail on all parties required:
Robert Cooper
WILSON ELSER MOSKOWITZ EDELMAN
&DICKERLLP

555 S. Flower Street, Suite 2900
Los Angeles, CA 90071
(213) 330-8950
robert.cooper@wilsonelser.com

Counsel for Petitioner
John Michael Reeves
REEVES LAW LLC

3703 Watson Rd.
St. Louis, MO 63109
(314) 775-6985
reeves@reeveslawstl.com

Counsel for Scott County Community
Development Agency

John Egan

RUBIN AND RUDMAN LLP

50 Rowes Wharf
Boston, MA 02110
(617) 330-7181
jegan@rubinrudman.com

Counsel for California Association of
Housing Authorities

I declare under penalty of perjury that the foregoing is true and correct.

Date: May 12, 2021

